  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 FLORIDA CLAIMED SOME MEDICAID
ADMINISTRATIVE COSTS THAT DID NOT
     COMPLY WITH PROGRAM
         REQUIREMENTS
    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                         March 2013
                                                        A-04-10-00076
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements. In Florida, the Agency for Health Care Administration
(Medicaid agency) administers the Medicaid program.

Section 1903(a)(7) of the Act permits States to claim 50-percent Federal financial participation
(FFP) for the cost of certain Medicaid administrative activities that are necessary for the proper
and efficient administration of the State plan.

The Agency for Persons With Disabilities (APD) is a Florida agency that serves individuals with
developmental disabilities and their families. Because APD performed certain services required
under the State plan on behalf of individuals with developmental disabilities, the allowable
portion of its administrative costs allocable to Medicaid was eligible for FFP. On the quarterly
Form CMS-64, the Medicaid agency claimed 50-percent FFP for APD Medicaid administrative
costs, including costs allocated based on APD’s quarterly random moment sampling (RMS).

Under the RMS, a computer program randomly selected the dates, times, and positions that made
up individual sample moments. At the selected date and time, the employee in the sampled
position would complete a form that reflected the function or activity that he or she was
performing at the sampled moment (observation). APD used these observations to determine the
percentage of time spent working on various programs, including Medicaid. APD calculated its
Medicaid administrative costs by multiplying its total pooled administrative costs by the
Medicaid observation percentage derived from the RMS. Therefore, the accuracy of observation
forms supporting APD’s Medicaid observation percentages was a key factor in determining the
propriety of APD administrative costs assigned to Medicaid.

For Federal fiscal years (FY) 2007 through 2009, the Medicaid agency claimed APD Medicaid
administrative costs totaling $129,045,626 ($67,447,162 FFP). Of this amount, $44,449,066
($22,224,533 FFP) was allocated to Medicaid based on APD’s RMS.

OBJECTIVE

Our objective was to determine whether the Medicaid agency claimed certain Medicaid
administrative costs in accordance with Federal requirements.




                                                 i
SUMMARY OF FINDINGS

The Medicaid agency claimed some Medicaid administrative costs that did not comply with
Federal requirements. Of the $44,449,066 ($22,224,533 FFP) in APD administrative costs that
APD allocated to Medicaid and that the Medicaid agency claimed during FYs 2007 through
2009, we estimated that $4,386,952 ($2,193,476 FFP) did not comply with Federal requirements
and therefore was unallowable for FFP. These costs did not comply because certain employees
in sampled positions did not complete the RMS observation forms as specified in the Cost
Allocation Plan, and the RMS coordinator’s review did not detect noncompliance. As a result,
APD’s Medicaid-reimbursable observation percentages used to calculate its Medicaid
administrative costs were overstated.

Furthermore, we could not determine whether the remaining $40,062,114 ($20,031,057 FFP) in
costs allocated to Medicaid based on the RMS was allowable. Even though APD followed its
Cost Allocation Plan, we could not quantify the effect of the following vulnerabilities that we
identified in the RMS statistical sampling methods: limited work schedules, advance notification
of observations, improper treatment of invalid responses and nonresponses, and exclusion of
sampled employee’s position number from observation forms.

RECOMMENDATIONS

We recommend that the Medicaid agency:

   •   refund $2,193,476 to the Federal Government;

   •   ensure that APD follows procedures defined in its Cost Allocation Plan to ensure
       accurate completion and sufficient review of all observation forms;

   •   work with CMS to determine what portion of the remaining $40,062,114 ($20,031,057
       FFP) in costs allocated to Medicaid based on RMS was allowable under Federal
       requirements; and

   •   require APD to amend its Cost Allocation Plan to help ensure that APD’s RMS:

           o gives appropriate consideration to all hours worked by employees,

           o properly accounts for invalid responses and nonresponses, and

           o requires observation forms to include the sampled position number.

FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION COMMENTS

In written comments on our draft report, the Medicaid agency described actions that it was
taking, or that it planned to take, to address the three recommendations with which it concurred;
however, it disagreed with our first recommendation. Specifically, the Medicaid agency
disagreed with 38 of the 47 errors identified in the findings on which we based our first

                                                ii
recommendation. The Medicaid agency stated that the findings did not provide sufficient
evidence to support that exclusion of a date, which was the basis for the majority of the errors
found, affected the validity of the selected Medicaid activities. The Medicaid agency asserted
that APD supported all of the selected activities with comments provided by the individuals
sampled and that the individuals followed the instructions provided to them. Furthermore,
because neither 45 CFR § 95.507 nor 2 CFR part 225 require both initials and dates for changes
or corrections made on reviewed samples, the Medicaid agency contends that APD complied
with regulatory requirements for identifying, measuring, and allocating costs to programs it
administers.

APD commented that it has taken corrective actions to ensure accurate completion and sufficient
review of all observation forms. These corrective actions include (1) ensuring consistency with
the Cost Allocation Plan by updating written instructions to require that sampled individuals
include both initials and dates on observation forms, (2) communicating these instructions, and
(3) having APD’s regional and revenue management staff review observation forms to ensure
compliance with these instructions.

OFFICE OF INSPECTOR GENERAL RESPONSE

Federal regulations (45 CFR § 95.517(a)) state: “A State must claim FFP for costs associated
with a program only in accordance with its approved cost allocation plan.” APD’s Cost
Allocation Plan states: “If information is incorrectly entered on the form, the sampled employee
is required to make the necessary changes by placing a single line through the incorrect
information and verifying who made the changes by initialing and dating the changes.” Because
APD did not comply with its Cost Allocation Plan, we maintain that the Medicaid agency
claimed $4,386,952 in Medicaid administrative costs that did not comply with Federal
requirements and therefore was unallowable for FFP.

We commend the Medicaid agency and APD for their prompt corrective actions and prospective
compliance with the Cost Allocation Plan and Federal regulations. However, for FYs 2007
through 2009, we continue to recommend that the Medicaid agency refund $2,193,476.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ...........................................................................................................        1
              Medicaid Program ..............................................................................................           1
              Agency for Persons With Disabilities ................................................................                     1
              Public Assistance Cost Allocation Plan and Random Moment Sampling
               Determine Medicaid Administrative Costs .....................................................                            1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                   2
               Objective ............................................................................................................   2
               Scope ................................................................................................................   2
               Methodology ......................................................................................................       2

FINDINGS AND RECOMMENDATIONS .......................................................................... 3

          FEDERAL REQUIREMENTS AND THE COST ALLOCATION PLAN .................. 3
               Federal Regulations ........................................................................................... 3
               Public Assistance Cost Allocation Plan ............................................................. 4

          UNALLOWABLE MEDICAID ADMINISTRATIVE COSTS ................................... 5

          VULNERABILITIES IN STATISTICAL SAMPLING METHODS ........................... 8

          RECOMMENDATIONS ............................................................................................... 9

          FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION COMMENTS .... 9

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 10

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: ESTIMATION METHODOLOGY

          D: FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION COMMENTS




                                                                    iv
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements. In Florida, the Agency for Health Care Administration
(Medicaid agency) administers the Medicaid program.

Section 1903(a)(7) of the Act permits States to claim 50-percent Federal financial participation 1
(FFP) to defray the costs of certain Medicaid administrative activities that are necessary for the
proper and efficient administration of the State plan.

Agency for Persons With Disabilities

The Agency for Persons With Disabilities (APD) is a Florida agency that serves individuals with
developmental disabilities and their families. Because APD performed certain services required
under the State plan on behalf of individuals with developmental disabilities, the allowable
portion of its administrative costs allocable to Medicaid was eligible for FFP. On the quarterly
Form CMS-64, the Medicaid agency claimed 50-percent FFP for APD Medicaid administrative
costs, including costs allocated based on APD’s quarterly random moment sampling (RMS). For
Federal fiscal years (FY) 2007 through 2009, the Medicaid agency claimed APD Medicaid
administrative costs totaling $129,045,626 ($67,447,162 FFP). Of this amount, $44,449,066
($22,224,533 FFP) was allocated to Medicaid based on APD’s RMS as described in detail
below.

Public Assistance Cost Allocation Plan and Random Moment Sampling
Determine Medicaid Administrative Costs

APD allocated its pooled administrative costs to individual programs, including Medicaid,
according to procedures included in its Public Assistance Cost Allocation Plan (Cost Allocation
Plan). The Cost Allocation Plan established APD’s procedures, including the RMS, for
identifying, measuring, and allocating costs to each of the programs that the agency operated.
Under the RMS, a computer program randomly selected the dates, times, and positions that made
up individual sample moments. At the selected date and time, the employee in the sampled
position would complete a form that reflected the function or activity that he or she was
performing at the sampled moment (observation). These observations were used to determine
the percentage of time spent working on various programs, including Medicaid. An instance in

1
 The Federal Government provides matching funds to States for specified percentages of Medicaid program
expenditures. This matching is commonly known as “Federal financial participation.”

                                                      1
which the RMS identified an employee in a sampled position as engaged in a Medicaid function
or activity at the specific sample moment represented a Medicaid-reimbursable observation.
APD calculated its Medicaid administrative costs by multiplying its total pooled administrative
costs by the Medicaid observation percentage derived from the RMS. 2 The resulting product
was included in total Medicaid administrative costs claimed for a given FY. Therefore, the
accuracy of observation forms supporting APD’s Medicaid observation percentages was a key
factor in determining the propriety of APD administrative costs assigned to Medicaid.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid agency claimed certain Medicaid
administrative costs in accordance with Federal requirements.

Scope

For FYs 2007 through 2009, the Medicaid agency claimed APD Medicaid administrative costs
totaling $129,045,626 ($67,447,162 FFP). Of this amount, we reviewed $44,449,066
($22,224,533 FFP) allocated to Medicaid based on the RMS.

We limited our internal control review to APD’s systems and procedures for claiming Medicaid
administrative costs to the extent necessary to accomplish our objective.

We conducted our fieldwork at APD’s offices in Tallahassee, Florida.

Methodology

To accomplish our objective, we:

    •   reviewed applicable laws, regulations, and guidelines;

    •   interviewed APD officials regarding its Medicaid administrative costs, Cost Allocation
        Plan, and related policies and procedures;

    •   reviewed the Cost Allocation Plan guidance outlining proper administration of the RMS;

    •   reviewed calculations supporting APD’s Medicaid observation percentages;

    •   reconciled APD’s Medicaid administrative costs to the quarterly Medicaid Expenditure
        reports (Form CMS-64);




2
 APD calculated its quarterly Medicaid-reimbursable observation percentage by dividing Medicaid-reimbursable
observations by total valid observations.

                                                      2
   •   compiled from APD’s RMS a sampling frame of Medicaid-reimbursable observations for
       each FY under review, including 3,537 observations in FY 2007, 3,462 observations in
       FY 2008, and 3,572 observations in FY 2009;

   •   selected a random sample of 100 Medicaid-reimbursable observations from each of the
       3 FYs (Appendix A);

   •   reviewed each observation form to determine whether the observation (1) complied with
       Federal requirements and (2) was properly classified as Medicaid reimbursable
       (Appendix B); and

   •   estimated excessive RMS-based Medicaid administrative costs claimed and related FFP
       overstatements for 2007, 2008, and 2009 (Appendix C).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The Medicaid agency claimed some Medicaid administrative costs that did not comply with
Federal requirements. Of the $44,449,066 ($22,224,533 FFP) in APD administrative costs that
APD allocated to Medicaid and that the Medicaid agency claimed during FYs 2007 through
2009, we estimated that $4,386,952 ($2,193,476 FFP) did not comply with Federal requirements
and therefore was unallowable for FFP. These costs did not comply because certain employees
in sampled positions did not complete the RMS observation forms as specified in the Cost
Allocation Plan, and the RMS coordinator’s review did not detect noncompliance. As a result,
APD’s Medicaid-reimbursable observation percentages used to calculate its Medicaid
administrative costs were overstated.

Furthermore, we could not determine whether the remaining $40,062,114 ($20,031,057 FFP) in
costs allocated to Medicaid based on the RMS was allowable. Even though APD followed its
Cost Allocation Plan, we could not quantify the effect of the following vulnerabilities that we
identified in the RMS statistical sampling methods: limited work schedules, advance notification
of observations, improper treatment of invalid responses and nonresponses, and exclusion of
sampled employee’s position number from observation forms.

FEDERAL REQUIREMENTS AND THE COST ALLOCATION PLAN

Federal Regulations

Pursuant to Federal regulations (45 CFR § 95.517(a)), “A State must claim FFP for costs
associated with a program only in accordance with its approved cost allocation plan.”


                                               3
Office of Management and Budget Circular A-87 (the Circular), Attachment A (C)(1)(j), states
that costs must be adequately documented to be allowable.

Attachment A (B)(17) of the Circular defines a “[p]ublic assistance cost allocation plan [as a]
narrative description of the procedures that will be used in identifying, measuring and allocating all
administrative costs to all of the programs administered or supervised by State public assistance
agencies ….”

Sampling methods used to allocate salaries to Federal awards must meet acceptable statistical
sampling methods. 3 The sampling universe must include all of the employees whose salaries
and wages are to be allocated based on the sample results, the entire time period involved must
be covered by the sample, and the results must be statistically valid and applied to the period
being sampled. 4

Public Assistance Cost Allocation Plan

The Cost Allocation Plan describes APD’s procedures, including the RMS, used to identify,
measure, and allocate costs to each of the programs operated by the agency. Attachment C,
Random Moment Sampling Operation, states: “The application of the [RMS] system results for
the allocation is executed via a two-step procedure resulting in the production of the final
program summary report.” It also states: “The final program summary represents the absolute
percentage of time observed for each program area ….”

The Cost Allocation Plan, Attachment D, RMS Instructions, Sampling Form and Allocation
Matrix, provides specific instructions for accurately completing and sufficiently reviewing RMS
observation forms. Among other things, it states:

       •    “Once a sample has been selected, no changes are made to the sample data during the
            quarter.”

       •    The sampled employee will complete the observation form by marking the activity they
            were engaged in at the exact time of the sample moment. This includes writing a
            description of the activity engaged in at the exact time of the sample moment in the
            “Comments” section, signing the form, and reflecting the time and date in which the
            sample was completed. 5

       •    “If information is incorrectly entered on the form, the sampled employee is required to
            make the necessary changes by placing a single line through the incorrect information
            and verifying who made the changes by initialing and dating the changes.”


3
    Attachment B 8.h.6.a of the Circular.
4
    Attachment B 8.h.6.a(i), (ii), and (iii) of the Circular.
5
    The time and date should correspond to the time and date of the sampled moment.


                                                                4
       •   “The hours selected for the RMS sample are selected from the agency core work hours.
           Currently, the sample hours are 8 a.m. – 12 p.m. and 1 p.m. – 5 p.m., Monday through
           Friday.”

       •   The sample coordinator administers the RMS and is responsible for reviewing “all
           observation forms to ensure accuracy in the following areas:

                o Correct activity code checked;

                o Dated signature and sample time of [sampled employees];

                o … [W]hiteout has not been used on the form;

                o [Sampled employee] has put a single line through any accidental mistakes within
                  the comment section and/or any wrongly selected code;

                o [Sampled employee] had initialed and dated any changes made as detailed
                  above[.]”

UNALLOWABLE MEDICAID ADMINISTRATIVE COSTS

Of the 300 Medicaid-reimbursable observations sampled, 45 did not comply with Federal
requirements and therefore were unallowable for FFP. 6 (See the table and detailed description of
noncompliant observations on the next page.) We did not identify any errors in the remaining
255 Medicaid-reimbursable observations.




6
    Two of these observations included 2 errors; thus, we identified 47 total errors involving 45 observations.


                                                             5
                               Summary of Random Moment Sampling Errors



                                         Employee                      Medicaid
          Employee       Employee       in Sampled                     Activity           Name of
         in Sampled     in Sampled        Position     Signature       Code Not         Employee in      Sampled
           Position       Position        Did Not       Time or       Supported           Sampled        Moment
           Initialed       Neither        Include       Date Did          by              Position       Was Not
         But Did Not      Initialed       Date or      Not Match      Accounting       Changed After      Within
             Date        Nor Dated      Time With       Sampled       and Other       the Sample Was      Core         Total
FY       Corrections    Corrections      Signature      Moment         Records            Selected        Hours        Errors


2007               7               1              4               4              1                   3           2        22
2008               6               6              1               0              0                   0           0        13
2009               7               2              0               0              3                   0           0        12

Total             20               9              5               4              4                   3           2        47

     We found the following areas of noncompliance with Federal requirements:

         •   If information was incorrectly entered on the form, the Cost Allocation Plan required the
             employee to place a single line through the incorrect information and initial and date the
             changes. For 20 observations, the employee in the sampled position initialed but did not
             date the corrections. For example, on August 5, 2008, an employee selected an activity
             that was not Medicaid reimbursable. The activity was subsequently changed to a
             Medicaid-reimbursable activity. The employee initialed but did not date this correction.

         •   The Cost Allocation Plan required employees in a sampled position to complete the
             observation form by marking the activity that they were engaged in at the exact time of
             the sample moment. This included writing a description of the activity in the
             “Comments” section, signing the form, and noting the time and date when the sample
             was completed.

                  o For nine observations, the employee in the sampled position neither initialed nor
                    dated corrections. For example, on October 10, 2006, an employee did not initial
                    or date a correction to the activity code selected.

                  o For five observations, the employee in the sampled position did not include the
                    date or the time with the signature. For example, on January 12, 2007, an
                    employee signed the form and included the date but omitted the time. In another
                    example, on September 20, 2006, an employee signed the form and included the
                    time but omitted the date. 7

     7
      APD completed its RMS on a quarterly basis, with a 1-month offset to the sampling period. For example, for the
     quarter ended December 31, 2006, the sample period was September through November 2006.


                                                            6
             o For four observations, the signature time or date did not match the sampled
               moment. For example, an employee in a sampled position signed an observation
               form for a moment sampled on July 13, 2007, but incorrectly dated it August 13,
               2007.

    •    The Circular, Attachment A (C)(1)(j), states that costs must be adequately documented to
         be allowable. Contrary to this requirement, for four observations, APD entered into the
         RMS a Medicaid activity code that was not supported by adequate documentation. For
         example, on September 13, 2006, an employee in a sampled position selected code N,
         defined in the Cost Allocation Plan as “Supervisory Conference and General
         Administration.” However, APD entered code E in the RMS, defined as “Facilitating
         Access to Medicaid Eligibility.”

    •    The Cost Allocation Plan states: “Once a sample has been selected, no changes are made
         to the sample data during the quarter.” For three observations, the employee name
         (sample data) was changed after sample selection. For example, on October 17, 2006, the
         name of the employee in the sampled position was crossed out and another name was
         written above it. This employee, not originally in the sampled position, completed the
         observation form.

    •    The Cost Allocation Plan defined the hours that may be selected for RMS as any minute
         that occurs on Monday through Friday from 8 a.m. through 12 p.m. or from 1 p.m.
         through 5 p.m. For two observations, the sampled moment was not within core hours.
         For example, a sampled moment on April 12, 2007, indicated a time of 5:11 p.m.

The accuracy of observation forms supporting APD’s Medicaid observation percentages was a
key factor in determining the propriety of APD administrative costs assigned to Medicaid.
Accordingly, the sample coordinator administered the RMS and was responsible for reviewing
all observation forms to ensure accuracy of activity codes, dated signature and sample time, and
correction of errors. These errors occurred because certain employees in sampled positions did
not complete the RMS observation form as specified in the Cost Allocation Plan. Furthermore,
the sample coordinator’s review did not detect these errors and therefore did not ensure the
accuracy of the RMS as required by the Cost Allocation Plan. 8

APD calculated its Medicaid administrative costs by multiplying its total pooled administrative
costs by the Medicaid observation percentage derived from the RMS. 9 Because the RMS results
included Medicaid-reimbursable observations that did not comply with Federal requirements,
APD overstated its Medicaid observation percentage and its costs allocated to Medicaid based on

8
 In addition to the 13 other errors identified, sampled employees omitted initials, date, or time for 34 of the 47
errors. Of these 34 errors, 29 involved corrections. Although these omissions may have been oversights,
observation forms related to all 47 errors did not comply with specific Cost Allocation Plan instructions designed to
ensure accurate completion, including verifying who made corrections and sufficiently reviewing all observation
forms.
9
 APD’s quarterly Medicaid-reimbursable observation percentage equaled Medicaid-reimbursable observations
divided by total valid observations.


                                                          7
the RMS. As a result of this noncompliance, for FYs 2007 through 2009, we estimated that the
Medicaid agency claimed $4,386,952 ($2,193,476 FFP) in costs that did not comply with
program requirements and therefore was unallowable for FFP.

VULNERABILITIES IN STATISTICAL SAMPLING METHODS

We could not determine whether the remaining $40,062,114 ($20,031,057 FFP) in costs allocated
to Medicaid based on the Cost Allocation Plan was allowable because we could not quantify the
effect of the vulnerabilities that we identified in the RMS statistical sampling methods.

Even though APD followed its Cost Allocation Plan in claiming the remainder of its Medicaid
administrative costs, we identified the following vulnerabilities:

       •   Limited Work Schedules: Some observations did not have a chance of selection because the
           sampling universe did not account for the entire work period. The Cost Allocation Plan
           defines the RMS work schedule as “8 a.m. – 12 p.m. and 1 p.m. – 5 p.m., Monday – Friday.”
           Although this represents an 8-hour day, it does not account for flextime schedules, observed
           by some employees within a Monday – Friday, 7 a.m. – 5 p.m. work schedule.

       •   Advance Notification of Observations: From October 2006 through February 2007, the
           Cost Allocation Plan allowed advance notice of selected observations to be given to
           employees in sampled positions.10 The employee could be provided with forms showing the
           moment selected any time from the day of the observation to 1 week before the observation.
           Providing advance notice of the observation may result in biased RMS results.

       •   Improper Treatment of Invalid Responses and Nonresponses: Except for the last quarter
           of our audit period, APD excluded all invalid responses and nonresponses, including those
           attributable to employees in sampled positions who did not return the observation form, when
           deriving its Medicaid observation percentage. The exclusion of all nonresponses potentially
           biased the sample results.11




10
     APD revised the Cost Allocation Plan to stop advance notification in March 2007.
11
  “Invalid” observations that occurred for a vacant position or for time not scheduled to work should be removed
from the sample because sample results are applied to personnel costs, and sample moments for unpaid time distort
the results. However, “nonresponses” that occurred because (1) the employee in the sampled position did not
complete the form, (2) the activity could not be determined, or (3) the observation was otherwise unreliable should
be included in the sample and treated as non-Medicaid-reimbursable in order to ensure proper allocation of costs.

                                                          8
     •   Exclusion of Sampled Employee’s Position Number From Observation Forms: In
         contrast to 2007, printed observation forms for 2008 and 2009 omitted the sampled position
         number.12 As stated in the Cost Allocation Plan, the observation forms were “used to
         document the activity performed by selected positions at designated times.” Therefore, this
         omission potentially biased the sample results.

Because of these vulnerabilities in the RMS statistical sampling methods, APD’s RMS data were
unreliable and could not accurately identify Medicaid administrative costs.

RECOMMENDATIONS

We recommend that the Medicaid agency:

     •   refund $2,193,476 to the Federal Government;

     •   ensure that APD follows procedures defined in its Cost Allocation Plan to ensure
         accurate completion and sufficient review of all RMS observation forms;

     •   work with CMS to determine what portion of the remaining $40,062,114 ($20,031,057
         FFP) in costs allocated to Medicaid based on RMS was allowable under Federal
         requirements; and

     •   require APD to amend its Cost Allocation Plan to help ensure that APD’s RMS:

             o gives appropriate consideration to all hours worked by employees,

             o properly accounts for invalid responses and nonresponses, and

             o requires observation forms to include the sampled position number.

FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION COMMENTS

In written comments on our draft report, the Medicaid agency described actions that it was
taking, or that it planned to take, to address the three recommendations with which it concurred;
however, it disagreed with our first recommendation. Specifically, the Medicaid agency
disagreed with 38 of the 47 errors identified in the findings on which we based our first
recommendation. The Medicaid agency stated that the findings did not provide sufficient

12
  APD sampled by position for certain position classes eligible to be considered under the RMS. RMS sample data
included control number, date, minute, position number, name, position classification, and location code. The
position number is a five-digit number assigned for each position used in the RMS. With the position number on the
observation form (2007), the name of the employee in the sampled position could be traced to personnel action
requests to ensure compliance with the Cost Allocation Plan, which states: “Once a sample has been selected, no
changes are made to the sample data during the quarter.” The omission of the position number from the observation
form (2008 and 2009), however, would allow an employee not officially in the sampled position to complete the
observation form and potentially distort the RMS results.



                                                        9
evidence to support that exclusion of a date, which was the basis for the majority of the errors
found, affected the validity of the selected Medicaid activities. The Medicaid agency asserted
that APD supported all of the selected activities with comments provided by the individuals
sampled and that the individuals followed the instructions provided to them. Furthermore,
because neither 45 CFR § 95.507 nor 2 CFR part 225 required both initials and dates for changes
or corrections made on reviewed samples, the Medicaid agency contends that APD complied
with regulatory requirements for identifying, measuring, and allocating costs to programs it
administers.

APD commented that it has taken corrective actions to ensure accurate completion and sufficient
review of all observation forms. These corrective actions include (1) ensuring consistency with
the Cost Allocation Plan by updating written instructions to require that sampled individuals
include both initials and dates on observation forms, (2) communicating these instructions, and
(3) having APD’s regional and revenue management staff review observation forms to ensure
compliance with these instructions.

The Medicaid agency’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

Federal regulations (45 CFR § 95.517(a)) state: “A State must claim FFP for costs associated
with a program only in accordance with its approved cost allocation plan.” APD’s Cost
Allocation Plan states: “If information is incorrectly entered on the form, the sampled employee
is required to make the necessary changes by placing a single line through the incorrect
information and verifying who made the changes by initialing and dating the changes.” Because
APD did not comply with its Cost Allocation Plan, we maintain that the Medicaid agency
claimed $4,386,952 in Medicaid administrative costs that did not comply with Federal
requirements and therefore was unallowable for FFP.

We commend the Medicaid agency and APD for their prompt corrective actions and prospective
compliance with the Cost Allocation Plan and Federal regulations. However, for FYs 2007
through 2009, we continue to recommend that the Medicaid agency refund $2,193,476.




                                               10
APPENDIXES
                                                                                                       Page 1 of 2


                             APPENDIX A: SAMPLING METHODOLOGY

For Federal fiscal years (FY) 2007 through 2009, 1 we stratified the population by Federal FY
and estimated the annual allowable/unallowable Medicaid observation percentage based on a
review of sampled observations. 2 We randomly selected 100 observations from each year and
reviewed them for allowability. 3

POPULATION

For FYs 2007 through 2009, each year’s population consisted of 10,000 total observations,
including 2,500 observations per quarter, used to distribute direct costs and related administrative
costs appropriate to the various programs and services administered by the Agency for Persons
With Disabilities (APD).

SAMPLING FRAME

For each year, we obtained Microsoft Excel files detailing total observations by quarter. We
refined our sampling frame by excluding observations that did not impact APD’s calculation of
Medicaid administrative costs. Our sampling frame for each year was an Excel spreadsheet
consisting of Medicaid-reimbursable observations used to calculate APD’s Medicaid
administrative costs and Federal financial participation (FFP) claimed for FYs 2007 through
2009. The annual sampling frames included:

    •    3,537 Medicaid-reimbursable observations for FY 2007,

    •    3,462 Medicaid-reimbursable observations for FY 2008, and

    •    3,572 Medicaid-reimbursable observations for FY 2009.

SAMPLE UNIT

The sample unit was a Medicaid-reimbursable observation.

SAMPLE DESIGN

For FYs 2007 through 2009, we used a simple random sample for each year.


1
 The audit period included 12 quarters beginning with the quarter ended December 31, 2006, and ending with the
quarter ended September 30, 2009.
2
  In the report, we refer to a sampled function or activity in which an employee in a sampled position was engaged at
a specific time as an “observation.”
3
 We determined allowability of an observation by reviewing the corresponding observation form and determining
whether the observation complied with Federal requirements and was, therefore, a Medicaid-reimbursable
observation.
                                                                                     Page 2 of 2


SAMPLE SIZE

For FYs 2007 through 2009, we selected a sample of 100 observations for each year.

SOURCE OF RANDOM NUMBERS

For FYs 2007 through 2009, we generated the random numbers for each year with the
Office of Inspector General, Office of Audit Services (OIG/OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

For FYs 2007 through 2009, we consecutively numbered the sampling frame from 1 through
3,537, 3,462, and 3,572, respectively. After generating 100 random numbers for each year, we
selected the corresponding frame item.

ESTIMATION METHODOLOGY

Using a separate sampling plan for each year, we determined the yearly allowable/unallowable
Medicaid observation percentage at the lower limit for the 90-percent confidence interval using
the OIG/OAS statistical software. As specified in the Estimation Methodology (Appendix C),
the yearly allowable/unallowable Medicaid observation percentage was applied to the State’s
submitted methodology to determine yearly allowable/unallowable Medicaid administrative
costs and FFP claimed and to estimate aggregate excessive Medicaid administrative costs and
FFP for the audit period.
                        APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                                Sample Results



                                                                                                   Number of
                                                                       Frame          Sample
                                                                                                   Errors in
                              Period                                    Size           Size
                                                                                                    Sample 1

    FY 2007: October 1, 2006 – September 30, 2007                       3,537            100             21
    FY 2008: October 1, 2007 – September 30, 2008                       3,462            100             13
    FY 2009: October 1, 2008 – September 30, 2009                       3,572            100             11
                                                          Total        10,571            300             45

                   Estimated Medicaid-Reimbursable Observation Percentages
                                       for FYs 2007–2009
                     (Limits Calculated for a 90-Percent Confidence Interval)


                              Unallowable           Unallowable             Point                Allowable
                                Medicaid              Medicaid           Estimate for            Medicaid-
                              Observation           Observation          Unallowable           Reimbursable
                              Percentage at         Percentage at         Medicaid              Observation
            Period            Lower Limit           Upper Limit          Observations           Percentage 2

        FY 2007                   14.617%              28.697%              21.000%              85.383%
        FY 2008                    7.943%              19.757%              13.000%              92.057%
        FY 2009                    6.355%              17.441%              11.000%              93.645%




1
  In 2007 and 2009, 2 observations included 2 errors; thus, we identified 47 total errors involving 45 observations.
We used these 45 unallowable observations to derive the estimated Medicaid-reimbursable observation percentages
for FYs 2007–2009.
2
 We calculated the allowable Medicaid-reimbursable observation percentage by subtracting the unallowable
Medicaid observation percentage at the lower limit from 100 percent.
                                                                                                       Page 1 of 2


                           APPENDIX C: ESTIMATION METHODOLOGY

Using the State’s quarterly data and submitted methodology, we calculated estimates consistent
with the estimated allowable Medicaid observation percentage as determined by our review of
Medicaid-reimbursable observations per APD’s random moment sampling (RMS). (See
Sampling Methodology in Appendix A and Sample Results and Estimates in Appendix B.)

DESCRIPTION OF ESTIMATES CALCULATED

We used the allowable/unallowable Medicaid observation percentage determined under separate
statistical sampling plans for 2007, 2008, and 2009 (Appendix B) to calculate the:

    •    quarterly allowable/unallowable Medicaid administrative costs and related FFP,

    •    annual allowable/unallowable Medicaid administrative costs and related FFP, and

    •    aggregate allowable/unallowable Medicaid administrative costs and related FFP for the
         audit period.

ESTIMATION METHODOLOGY

To accomplish our objective, we calculated APD’s aggregate estimated allowable/unallowable
Medicaid administrative costs and FFP for 2007 through 2009 using its submitted methodology
and calculations. 1 For each quarter, we performed the following calculations in sequential order:

    1. applied the estimated allowable Medicaid-reimbursable observation percentage (as shown
       in Appendix B) to APD’s calculation to determine estimated RMS-based Medicaid
       administrative costs allowed,

    2. compared APD’s RMS-based Medicaid administrative costs claimed on the Form
       CMS-64 with the estimated RMS-based Medicaid administrative costs allowed (step 1) to
       determine estimated excessive RMS-based Medicaid administrative costs claimed, and

    3. multiplied the estimated quarterly excessive RMS-based Medicaid administrative costs
       claimed (step 2) by the 50-percent FFP for Medicaid administrative activities to
       determine the estimated FFP overstatement for excessive RMS-based Medicaid
       administrative costs.




1
  APD calculated Medicaid administrative costs quarterly by multiplying its total pooled administrative costs by the
Medicaid observation percentage (Medicaid-reimbursable observations divided by total valid observations) derived
from the RMS. Other than applying the allowable Medicaid-reimbursable observation percentages as noted in
step 1, our calculations were the same.
                                                                                       Page 2 of 2


  ESTIMATION CALCULATION

  We totaled quarterly estimated excessive RMS-based Medicaid administrative costs claimed
  (step 2) and related FFP overstatements (step 3) to estimate amounts for 2007, 2008, and 2009.


                                                                                    Estimated FFP
                                                    Estimated                       Overstatement
                                  Estimated         Excessive                        for Excessive
             RMS-Based           RMS-Based         RMS-Based           FFP for        RMS-Based
              Medicaid            Medicaid          Medicaid           Medicaid        Medicaid
            Administrative      Administrative    Administrative     Administrative Administrative
Period      Costs Claimed       Costs Allowed     Costs Claimed         Costs            Costs

FY 2007       $15,876,027        $13,555,428         $2,320,599          50.00%          $1,160,300
FY 2008        15,776,837         14,523,683          1,253,154          50.00%             626,577
FY 2009        12,796,202         11,983,003            813,199          50.00%             406,599
    Total     $44,449,066        $40,062,114         $4,386,952          50.00%          $2,193,476
                                                                                                    Page 1 of3


APPENDIX D: FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION 

                        COMMENTS 





         RICKSCOTI                                                                      ELIZABETH DUDEK
                                            Better Health Care for all Floridians
         GOVERNOR                                                                          SECRETARY


                                                          November 27, 2012



      Ms. Lori S . Pilcher
      Regional Inspector General for Audit Services
      Department of Health & Human Services
      Office of Inspector General
      Office of Audit Services, Region IV
      61 Forsyth Street, SW, Suite 3T41
      Atlanta, GA 30303

      Dear Ms. Pilcher:

      Thank you for your letter of October 25. 2012, requesting us to provide comments on the draft
      report number A-04-10-00076 entitled Florida Claimed Some Medicaid Administrative Costs
      That Did Not Comply With Program Requirements. In accordance with your request, we have
      mailed a paper copy and emailed you our response .

      If you have any questions regard ing our response, please contact Mary Beth Sheffield, Aud it
      Director, at 850-412-3978.




      ED/szg
      Enclosure




       2727 Mahan Driv e • Ma il Sto p #1                                            Visit AHCA online at
       T allah a ss ee , FL 32308                                                   AHCA .M yFtorida. co m
                                                                                                           Page 2 of3



                          Agency f or Health Care Administration 

           Florid a Clai med Some Medicaid Administrative Co s ts That Did Not 

                           Comply With Program Requirements 

                Resp onse to HHS/OIG Draft Report dated October 2012 


Summary of Findings 

The Medicaid agency claimed some Medicaid administrative costs that did not comply with Federal 

requirements. Of the $44,449,066 (FFP $22,224,533) in APD administrative costs that APD allocated to 

Medicaid and that the Medicaid agency claimed during FYs 2007 through 2009, we estimated that 

$4,386,952 (FFP $2, 193,476) did not comply with Federal requirements and therefore was unallowable for 

FFP. These costs did not comply because certain employees in sampled position did not complete the 

RMS observation forms as specified in the Cost Allocation Plan, and the RMS coordinator's review d id not 

detect noncompliance. As a result, APD's Medicaid-reimbursable observation percentages used to 

calculate its Medicaid administrative costs were overstated . 


Furtherm ore, we could not determ ine whether the remaining $40,062,1 14 (FFP $20,031 ,057) in costs 

allocated to Medicaid based on the RMS was allowable. Even though APD followed its Cost Allocation 

Plan, we could not quantify the effect of the following vulnerabilities that we identified in the RMS statistical 

sampling methods: limited work schedules, advance notification of observations, improper treatment of 

invalid responses and nonresponses, and exclusion of sampled employee's position number from 

observation forms. 


Recommendation#1 

Refund $2, 193,476 to the Federal Government. 


A gency Response and Correc tive Action Pl an:
The Agency for Health Care Administration consulted with the Agency for Persons with Disabilities (APD)
on the responses to the instant audit's findings. In an agreement required by ss. 20.197 and 409.221,
Florida Statutes, and formalized on April15, 2005, the Agency for Health Care Administration delegated to
the Agency for Persons with Disabilities, with Federal approval, the operational responsibilities associated
with: the CDC+ program for individuals seNed under the Developmental Disabilities Waiver; the
Developmental Disabilities and Family/Supported Living Waivers; and the Intermediate Care Facility
SeNices for the Developmentally Disabled {ICFIDD) Program. After such consultation with APD, the
Agency's (AHCA 's) position is that it does not concur with this particular recommendation.

Of the 47 total errors contained in the audit, the Agency for Persons with Disabilities (APD) did not agree
with 38 of those findings. It is APD's s position that the stated findings do not provide sufficient evidence to
support the assertion that exclusion of a date would affect the validity of the selected Medicaid activities.
APD asserts that all of the activities selected were supported by the comments provided by the individuals
sampled. The individuals sampled followed the instructions provided to them.

APD contends it has complied with the requirements of 45 CFR 95.507 in identifying, measuring and
allocating costs to each of the programs administered by it. APD has also asserted that it complied with the
cost principles contained in 2 CFR 225, COST PRINCIPLES FOR STATE, LOCAL, A ND INDIAN TRIBA L
GOVERNMENTS (OMB CIRCULAR A-87).

Neither of these federal regulations ( 45 CFR 95.507 and 2 CFR 225) requires both initials and dates for
changes or corrections made on reviewed samples. The audit did not contain findings of non-compliance
with identifying, measuring and allocating costs or inaccuracy with the data in the accounting records. The
majority of the findings were simply that a date had not been included with the initials for corrections that
were made on the samples reviewed.




                                                   Page I of2
                                                                                                          Page 3 of 3



                        Agency for Health Care Adm in istration 

           Florida Claimed Some Medicaid Admi nist rative Costs That Did Not 

                         Comply With Program Requirements 

                Respon se t o HHS/OIG Draft Report dated October 2012

Recommendatio n#2
Ensure that APD follows procedures defined in its Cost Allocation Plan to ensure accurate completion and
sufficient review of all observation forms.

Agency Response and Corrective Action Plan:
The Agency for Health Care Administration concurs.

The Agency for Health Care Administration has been informed that APD has communicated with the
individuals being sampled pursuant to the Cost Allocation Plan and are requiring these individuals to now
include both Initials and dates, in addition to the description of the activity engaged at the exact time of the
sample moment, to support their documentation. APD also asserts that written instructions to that effect
have been updated, to ensure consistency with the Public Assistance Cost Allocation Plan (PACAP).
Additionally, APD reports close review is being made by both regional and revenue management staff of
APD to ensure the obseNation forms are completed in compliance with the written instructions.



Recommendation#3
Work with CMS to determine what portion of the remaining $40,062,114 (FFP $20,031 ,057) in costs
allocated to Medicaid based on RMS was allowable under Federal requirements.

A gency Response and Corrective Action Plan:
The Agency for Health Care Administration concurs.

Of the Title XIX programs administered by APD which utilize the random moment samp ling time keeping
system for the time period included in this audit, approximately 9.2% of the direct program expenditures
alone were for the state match for the Medicaid waiver, approximately 6% of direct program expenditures
were for Social SeNices Block Grant activities, and approximately 2% of the direct program expenditures
were for state-funded activities. Most of A PO's administrative costs are to support Title XIX activities.

The Agency for Health Care Administration and APD will work with CMS and provide any requested
documentation for any audit they would engage the agency to perform.



Recommendation#4
Require APD to amend its Cost Allocation Plan to help ensure that APD's RMS :
   a. Gives appropriate consideration to all hours worked by employees,
   b. Properly accounts for invalid responses and nonresponses, and
   c. Requires observation forms to include the sampled position number.

Agency Response and Corrective Actjon Plan:
The Agency for Health Care Administration concurs.

APD is in the process of rewriting the PACAP to incorporate the appropriate changes for their work
schedules. The original sampling system was not robust enough to accommodate multiple work schedules,
however, the new system proposed by APD will have that capability.

The Agency for Health Care Administration and APD will ensure the Cost Allocation Plan properly accounts
for invalid responses and nonresponses.

Regarding recommendation 4C, APD is currently in the process ofworking with their vendor to have the
position number printed on the sample forms .

                                                  Page 2 of2
